CERTIFICATE OF WORD COUNT
NO. 19-588
Lori Madden-Grammer,
Petitioner(s),
v.
Industrial Claim Appeals Office, et al.,
Respondent(s).
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the POUDRE VALLEY
HOSPITAL AND COLORADO HOSPITAL ASSN. TRUST BRIEF IN OPPOSITION contains 1054 words,
including the parts of the brief that are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
December 4, 2019

SCP Tracking: Stratton-2629 Redwing Road, Suite 330-Cover Orange

